FILED
JUN 24 2019
IN THE
SUPREME COURT OF THE UNITED STATES

No.

OFFICE OF THE CLERK
SUPREME COURT U S.

I'M 1367

JAIDEEP S. CHAWLA,
Applicant,
v.
MASSACHUSETTS APPEALS COURT,
Respondent.

APPLICATION TO THE HON. STEPHEN BREYER FOR AN EXTENSION
OF TIME WITHIN WHICH TO FILE A PETITION FOR A WRIT OF
CERTIORARI TO THE SUPREME JUDICIAL COURT FOR
THE COMMONWEALTH OF MASSACHUSETTS
Pursuant to Rule 13(5) of the Rules of this Court, Petitioner, Jaideep S. Chawla
("Petitioner"), acting pro se, respectfully requests that the time to file a petition for a writ
of certiorari to the Supreme Judicial Court for the Commonwealth of Massachusetts
extend for 60 days, to and including September 9, 2019 in the case of Chawla v. Mass.
Appeals Court, No. SJC-12488 (Mass., Apr. 11, 2019). The Supreme Judicial Court for
the Commonwealth of Massachusetts (the "SJC") issued its opinion on April 11, 2019
(the "Opinion," attached at Exhibit A).
The deadline to file a petition for a writ of certiorari runs from the date of the
Opinion. The jurisdiction of this Court is based on 28 U.S.C. § 1257(a).

1

Pursuant to Rule 13(1) of the Rules of this Court, the date within which a
petition for certiorari would be due, if not extended, is July 10, 2019.
Petitioner is the Relator pursuant to Mass.Gen.Laws ch. 12 §§ 5A et seq.
in two state qui tam actions (the "Qui Tam Actions"). In the Qui Tam Actions, Petitioner
brought multiple reverse false claims alleging that the defendants in those cases had
failed to pay monetary obligations exceeding $1 million to the Commonwealth as
required under Mass.Gen.Laws ch. 64K §§ 1 et seq.
After the trial court allowed the Massachusetts Attorney General's motions to
dismiss the Qui Tam Actions and on appeal of that allowance, this controversy arose
when then-Massachusetts Appeals Court Justice Gary Katzmann was elevated to the U.S.
Court of International Trade. Then-Justice Katzmann's elevation occurred during the
pendency of a petition for rehearing, which alleged (based on facts unavailable in the trial
court proceedings) that opposing counsel had a disqualifying financial conflict of interest
and appeared to have entered into an unlawful quid pro quo. Before leaving, then-Justice
Katzmann joined the original panel in entering an order requiring a response from the
Massachusetts Attorney General to the petition for rehearing.
When a new panel was formed with a replacement justice (the "Replacement
Justice") and disposed of the petition for rehearing without notice of the formation of the
new appellate panel, Petitioner filed a motion for recusal of the Replacement Justice
alleging that the Replacement Justice had knowledge of disputed facts in the petition for
rehearing. The recusal motion directed at the Replacement Justice was subsequently
denied by the new panel.
2

In the Opinion, the SJC affirmed denial of the Petitioner's motion to vacate the
judgment in one of the two Qui Tam Actions for failure to conform to the notice
requirements of the Due Process Clause of the Fourteenth Amendment to the U.S.
Constitution. The motion to vacate was brought because the Massachusetts Appeals
Court panel was surreptitiously replaced, without notice or an opportunity to be heard, by
a new panel that proceeded to deny a petition for rehearing in the same Massachusetts
Appeals Court case. See Mass.R.App.P. 27 ("A petition for rehearing shall be decided
by the quorum or panel which decided the appeal.") (emphasis added).
In the Opinion, the SJC did not mention the words "due process" and "notice,"
which formed the basis of the questions presented to the SJC by Petitioner. Despite
Petitioner's repeated exhortations in his briefs and during oral argument that the new
appellate panel lacked jurisdiction to act on the petition for rehearing because no notice
was provided of its formation, the SJC held that Petitioner should have filed an
application for further appellate review and therefore had no basis for relief. When a
judgment is void, however, the form of a litigant's papers — mandamus, certiorari,
further appellate review, or carrier pigeon — is of no consequence, because the Court is
compelled to vacate.'

I See Field v. Mass. Gen. Hosp., et al., 393 Mass. 117, 118 (1984) ("Rule 60(b)(4) allows
relief only from void judgments. A court must vacate a void judgment. It may not
vacate a valid one. No discretion is granted by the rule.") (emphasis added); Pennoyer v.
Neff, 95 U.S. 714, 728 (1877) (holding validity of judgment depends upon proper
jurisdiction of court rendering judgment); Graciette v. Star Guidance, Inc., 66 FRD 424,
426 (S.D.N.Y. 1975) (noting void judgment may be challenged by collateral attack in any
court where its validity is an issue); Wright, Miller, and Kane, 11 Federal Practice and
Procedure at § 2862 ("There is no question of discretion on the part of the court when a
motion is under Rule 60(b)(4).")
3

This Court must intervene to prevent the highest court of Massachusetts from
expressly sanctioning the actions of a lower court which plainly acted without
jurisdiction. Moreover, even if the Massachusetts Appeals Court had jurisdiction with its
new panel, recusal of the Replacement Judge was required because he is a witness to
disputed facts.
This case presents substantial questions of law, among which are (1)
whether a state appeals court violates the Fourteenth Amendment by changing an
appellate panel without notice or an opportunity to be heard contrary to its own written
rules; and (2) whether the Fourteenth Amendment requires recusal of a judge who is a
witness to disputed facts.
This Court previously denied a petition for a writ of certiorari filed by
Petitioner in a related case. Chawla v. Commissioner, et al., No. 17-266 (Oct. 2, 2017)
(certiorari denied after deadline to file extended 60 days based on date of entry of First
Circuit's mandate where motion was treated by First Circuit as petition for rehearing).
Petitioner, acting pro se in this and one or more additional cases, requires
the requested extension of time in order to adequately research the legal issues and to
prepare a petition in conformity with the arduous Rules of this Court, which have
changed since the filing of his last certiorari petition. Petitioner also requires the
additional requested time to assess whether he qualifies for in forma pauperis status.
As of the filing of this Application and to the best of Petitioner's
knowledge, no state or federal court has made a finding that any filing made by Petitioner

4

was frivolous in the more than five years of litigation out of which the matter at bar
arises.
7.

Petitioner avers that an extension of time will not prejudice the

Respondent, which is an intermediate state appeals court represented by counsel.

For the foregoing reasons, Petitioner hereby requests that an extension of time to
and including September 9, 2019, be granted within which Petitioner may file a petition
for a writ of certiorari to the Supreme Judicial Court of the Commonwealth of
Massachusetts.

Respectfully Submitted,

Jaaideep S. Chawla
PRO SE
Mailing Address:
12 Lexington Avenue
Charlestown, MA 02139
Dated: June 24, 2019

5

IN THE
SUPREME COURT OF THE UNITED STATES

No.

JAIDEEP S. CHAWLA,
Applicant,
v.
MASSACHUSETTS APPEALS COURT,
Respondent.

CERTIFICATE OF SERVICE

I, Jaideep S. Chawla, acting pro se, hereby certify that one copy of the attached
Application to Associate Justice Stephen Breyer for an Extension of Time to File a Petition for a
Writ of Certiorari to the Supreme Judicial Court for the Commonwealth of Massachusetts was
served on the following:
Attorney General of the Commonwealth of Massachusetts
One Ashburton Place
Boston, MA 02108
Service was made by USPS first class mail on June 24, 2019.

Jaideep S. Chawla
PRO SE
Mailing Address:
12 Lexington Avenue
Charlestown, MA 02129

EXHIBIT A

NOTICE: All slip opinions and orders are subject to formal
revision and are superseded by the advance sheets and bound
volumes of the Official Reports. If you find a typographical
error or other formal error, please notify the Reporter of
Decisions, Supreme Judicial Court, John Adams Courthouse, 1
Pemberton Square, Suite 2500, Boston, MA, 02108-1750; (617) 5571030; SJCReporter@sjc.state.ma.us
SJC -12488
JAIDEEP S. CHAWLA vs. APPEALS.COURT.•

April 142019_

Practice, Civil, Action in nature of mandamus. Supreme Judicial
Court, Superintendence of inferior courts.

Jaideep S. Chawla appeals from a judgment of a single
justice of this court denying his complaint for relief in the
nature of mandamus or, in the alternative, for relief pursuant
to G. L. c. 211, § 3. We affirm.
Background. Puruant to the False Claims Act, Chawla
commenced a qui tam action in the Superior Court against two
individuals being prosecuted by the Federal government for
narcotics offenses.' In general, Chawla sought recovery of taxes
due under the controlled substances tax, G. L. c. 64K, on the
illegal narcotics allegedly possessed by certain individuals as
part of their criminal enterprise. After investigation, the
Attorney General elected not to intervene in the qui tam action,
see G. L. c. 12, § 5C (3), and moved to dismiss it. See G._
c. 12, § 5D (2). Chawla appealed from the allowance of the
motion, and a panel of the Appeals Court affirmed the judgment
dismissing the case. See Chawla v. Gonzalez, 90 Mass. App. Ct.
1102 (2016). Chawla next filed a petition for rehearing in the.
Appeals Court. See Mass. R. A. P. 27 (a), as appearing in 396
Mass. 1218 (1986). One of the original panel members was no
The False Claims Act "encourages individuals with direct
and independent knowledge of information that an entity is
defrauding the Commonwealth to come forward by awarding to such
individuals a percentage of the Commonwealth's recovery from the
defrauding entity." Scannell v. Attorney Gen., 70 Mass. App.
Ct. 46, 48 (2007).
1

longer a,member - of that court, and another associate justice •
(replacement judge) of the Appeals Court - was_called in to.take
P: 24 (a), 365 Mass. 872
part inthedecision. See Mass. R:
(1974). The petition for reheating was denied. Chawla's
subsequent motion for recusal of the replacement judge- was
denied.2 Chawla did pot file an application for further
appellate review.3
Chawla thereafter filed a complaint in the county court,
which he amended twice. The second amended complaint seeks
relief in the nature of mandamus, pursuant to G. L. c. 249, § 5,
to compel the replacement judge to demonstrate the basis for his
decision not to recuse himself from participation in the
--- proceeding, to order the judge's recusal, and to compel the
Appeals Court both to vacate the denial of his petitiOn for -.
rehearing and to reconsider it. In addition, pursuant to G. L.
c. 211, § 3, Chawla seeks appointment of a special prosecutor to
investigate the Attorney General and an order vacating the
Superior Court's judgment in the qui tam action. The single
justice correctly denied relief.
Discussion. "It would be hard to find any principle more
fully established-in our practice than - the:principle that
neither- mandamus - nor certiorari is to be used-as.a substitute
for ordinary appellate procedure or used -at any time when there
is another adequate remedy:"- Myrick v. Superior Court Dep't,
479 Mass. 1012, 1012 (2018), quoting Rines v. Justices of the
Superior Court, 330 Mass: 368, 371 (1953). Chawla could have
sought review of the replacement judge's decision not to recuse
himself, and the alleged effect of that decision on the panel's
ultimate ruling on the petition for rehearing, by filing an
Chawla seeks the recusal of the replacement judge on the
ground that, years before becoming an associate justice of the,
Appeals Court, he was employed as an assistant district attorney
and his responsibilities included prosecution of alleged
narcotics dealers and gang members. Although the employment was
completed years before and in a different county from the one in
which the events underlying the qui tam action occurred, Chawla
nonetheless asserted that the associate justice "has or should
have" knowledge of material facts underlying Chawla's qui tam
claim, including with respect to enforcement of the controlled
substances tax, G. L. c. 64K, § 9. Nothing about these bare
assertions required the replacement judge to recuse himself.
2

3 Chawla sought and obtained from this court an extension of
time in which to file an application, but never filed one.

3
application for further appellate review. See Abdullah v.
Secretary of Pub. Safety, 447 Mass. 1009, 1009 (2006) (relief
properly denied under G. L. c. 211, § 3, where petitioner could
have, but did not, seek leave to obtain further appellate
review). See also Ewing v. Commonwealth, 451 Mass. 1005, 1006
(2008).
Moreover, a judge's decision whether to recuse him- or
herself from a particular proceeding is generally, as it was
here, within the judge's discretion.4 A complaint in the nature
of mandamus is limited to requiring a public official to perform
a "clear cut duty," as opposed to requiring the exercise of
discretion in a particular way. Ardon v. Committee for Pub.
Counsel Servs., 464 Mass. 1001,1001 (2012), cert. denied,' 571_ _
-F, quoting Simmons v. Clerk-Magistrate of the
(2013
Boston Div. of the Hous. Court Dep't, 448 Mass. 57, 59-60
(2006). "Mandamus will not issue to direct a judicial officer
to make a particular decision or to review, or reverse, a
decision made by a judicial officer on an issue properly before
him or her." Myrick v. Appeals Court, 481 Mass. 1029, 1030
(2019), quoting Montefusco v. Commonwealth, 452 Mass. 1015, 1015
(2008). In this case, the single justice properly declined
mandamus relief to compel the recusal of the replacement judge,
to require the Appeals Court to recall its rescript, to vacate
the denial of Chawla's petition for rehearing, or to compel
reconsideration of the petition. None of these things is a type
of action that could be compelled by a complaint for mandamus.
With respect to Chawla's request pursuant to G. L. c. 211,
3, that the single justice appoint a special prosecutor to
investigate the Attorney General, or to order the Superior Court
to vacate its judgment, the single justice determined that
"[t]his is not a matter for the exercise of the court's
extraordinary power under [G. L. c. 211, § 3]." We agree. The
court's power of general superintendence is reserved for
extraordinary circumstances, where the petitioner has
demonstrated both a substantial violation of a substantive right
and the absence of an adequate alternative remedy. See Pandey
Chawla cites no authority for his claim that an associate
justice of the Appeals Court is required to state his or her
reasons for denying a recusal motion. Cf. S.J.C. Rule 1:22 (b),
458 Mass. 1301 (2010) (justice of Supreme Judicial Court is
encouraged but not required to "provide a brief statement of his
or her reasons for denying" recusal motion). Mandamus will not
lie to impose such a requirement.
4

4

v. Roulston, 419 Mass. 1010, 1011 (1995). Chawla made no
showing of any substantive right to an investigation of the
Attorney General in these circumstances. See generally Carroll,
petitioner, 453 Mass. 1006 (2009). With respect to the Superior
Court's judgment, he also failed to demonstrate the absence br
inadequacy of remedies alternative to G. L. c. 211, § 3.
Specifically, he could have filed an appropriate postjudgment
motion in the Superior Court, see Mass. R. Civ. P. 60, 365 Mass.
828 (1974), and appealed from any adverse ruling.
The single justice neither erred nor abused his discretion
in denying the complaint.5
Judgment affirmed.

Jaideep S. Chawla, pro se.
Jeffrey T. Walker, Assistant Attorney General '(Amy Crafts,
Assistant Attorney General; also present) for the defendant.

5 We decline to consider matters that wete.not raised before
the single justice, or that are inadequately presented on
appeal. See Dowd v. Dedham, 440 Mass. 1007, 1007-1008 (2003).

